OFFICE OF INSPECTOR GENERAL


AUDIT OF USAID/SOUTHERN
AFRICA’S GENDER-RELATED
HIV/AIDS ACTIVITIES
AUDIT REPORT NO. 4-674-11-004-P
JANUARY 4, 2011




PRETORIA, SOUTH AFRICA
 
Office of Inspector General 


January 4, 2011

MEMORANDUM

TO:                  USAID/Southern Africa Mission Director, Jeff Borns

FROM:                Regional Inspector General/Pretoria, Christine M. Byrne /s/

SUBJECT:             Audit of USAID/Southern Africa’s Gender-Related HIV/AIDS Activities
                     (Report No. 4-674-11-004-P)

This memorandum transmits our final report on the subject audit. We have considered
management’s comments on the draft report and have incorporated them into the final report as
appropriate. They have been included in their entirety in Appendix II (excluding attachments).

The final report includes eight recommendations to strengthen USAID/Southern Africa’s gender-
related HIV/AIDS activities. Based on management’s comments, we deleted recommendation 2
in the draft report from the final report and renumbered draft report recommendations 3 through
9 in the final report accordingly. On the basis of management’s comments and supporting
documentation provided, we consider that management decisions have been reached on
recommendations 1, 3, 4, 5, 6, and 7, with final action taken on recommendations 1, 3, and 6.
These recommendations are closed upon report issuance. For recommendations 4, 5, and 7,
please provide the Office of Audit Performance and Compliance Division (M/CFO/APC) with the
necessary documentation to achieve final action.

Regarding recommendation 2, the mission has not yet determined the allowability of $22,745 in
questioned costs arising from the Women’s Justice Empowerment Initiative launch. Regarding
recommendation 8, while the mission endorsed some use of the Gender Technical Working
Group’s self-assessment tool, it did not specifically address the use of the tool in enhancing the
capability of the South African PEPFAR Partner Performance Assessment. As a result,
management decisions have not been reached on recommendations 2 and 8. We ask that you
notify us in writing within 30 days of any actions planned or taken to reach management
decisions on recommendations 2 and 8.

I want to express my sincere appreciation for the cooperation and courtesy extended to my staff
during the audit.




U.S. Agency for International Development
100 Totius Street X5
Pretoria, South Africa 0027
www.usaid.govoig
CONTENTS
Summary of Results ....................................................................................................... 1

Background ..................................................................................................................... 3

Audit Objective .................................................................................................................. 6

Audit Findings ................................................................................................................. 7

     Contract Not Adequately Reviewed by
     Contract Review Board ............................................................................................. 15

     Full-Time Gender Specialist Could Help
     Maximize Program Effectiveness .............................................................................. 17

     Public Awareness of U.S. Efforts Needs
     To Be Improved......................................................................................................... 18

     Performance Targets Were Not
     Disaggregated by Gender ........................................................................................ 20

     Partner Monitoring Could Be Enhanced.................................................................... 21

Evaluation of Management Comments ....................................................................... 23

Appendix I – Scope and Methodology ........................................................................ 25

Appendix II – Management Comments ....................................................................... 28
SUMMARY OF RESULTS
Gender norms and disparities are significant factors driving the global AIDS epidemic.
They are especially significant in South Africa, which has the world’s largest HIV burden.
A highly patriarchal society, the acceptance of concurrent relationships with multiple
partners, and the feminization of poverty have placed South African women and girls at
higher risk of HIV infection. This higher risk is reflected, for example, in an HIV
prevalence rate for females ages 20-24 over four times greater than that for males in the
same age group.

To address women’s greater vulnerability to HIV/AIDS, USAID/Southern Africa
implemented a number of activities in South Africa focusing on five high-priority gender
strategies set forth by the Office of the Global AIDS Coordinator. 1 These strategies
include increasing women’s legal protection, addressing male norms, and reducing
violence against women. This audit selected five activities that focused on one or more
of these gender strategies. These activities and the organizations with which USAID
partners to implement them are shown in the following table.

                                        Audited Activities
     Activity              Objective            Implementing       Funding            Period
                                                    Partner
Social mobilization   To reduce violence       Project Concern   FY 2009          FY 2009-12
                      against women            International     funding of
                                               (PCI)             $4.6 million
Brothers for Life     To combat HIV by         The John          $28 million      FY 2009-13
                      promoting positive       Hopkins           (over 5 years)
                      male norms               University
Voluntary savings     To increase              CARE              FY 2009          May 2004-June
and loan              incomes                                    funding of       2010
                                                                 $825,000
Voluntary             To reduce the            EngenderHealth    FY 2009          September 24,
counseling and        spread of HIV and                          funding of       2008, through
testing               mitigate its impact                        $1,025,000       September 23,
                      by increasing men’s                                         2013
                      access to HIV-
                      related services
Women’s Justice       To improve the           Research          $11.7 million    Sept. 30, 2008,
and                   quality of, and          Triangle          (original)       through
Empowerment           access to, care,         Institute, Inc.                    September 2011
Initiative (WJEI)     treatment, and           (RTI)                              (original)
                      justice for victims of
                      sexual violence and
                      abuse

The audited gender-related activities of USAID/Southern Africa were performing well in
terms of striving to change social attitudes related to violence against women, promoting
positive male norms, and increasing incomes of female caregivers of orphans and

1
 See “The Power of Partnerships: The President’s Emergency Plan for AIDS Relief” Third Annual
Report to Congress, p.130.


                                                                                                  1
vulnerable children. However, EngenderHealth’s voluntary counseling and testing
activity was only partially successful, and WJEI did not achieve its planned level of
performance for fiscal year 2009.

The audit found that the social mobilization program’s ultimate success, despite a
promising start, was jeopardized by a 33-percent decline in its second-year funding. For
WJEI, a slow start that caused the program to miss its first-year goals was compounded
by contract ambiguities and questionable spending. Furthermore, the audit found that
USAID’s contract with RTI for this program was not reviewed in accordance with Agency
guidance. The audit found a number of additional problems, including the lack of setting
performance targets for partner activities by gender, difficulties in exploiting potential
synergies between partners, and the low public awareness in South Africa of U.S.
Government assistance in fighting HIV/AIDS. The audit also found that the mission’s
monitoring of its HIV/AIDS activities could be enhanced.

We make 8 recommendations to help strengthen gender-related HIV/AIDS activities in
South Africa:

1. Devising and implementing an action plan to help ensure that the social mobilization
   program achieves it main objectives in the face of reduced funding (page 9).

2. Determining the allowability of $22,745 in questioned costs relating to the WJEI
   launch, and recovering any amounts deemed unallowable (page 15).

3. Establishing management controls to help ensure that contracts are reviewed in
   accordance with Agency guidance (page 16).

4. Promoting mutually beneficial collaboration between Project Concern International
   and EngenderHealth (page 18).

5. Developing a plan to devote more staff resources to coordinating HIV/AIDS gender
   issues (page 18).

6. Devising a branding and marking plan for WJEI (page 20).

7. Establishing policies and procedures for partners to follow in setting gender-specific
   targets for activities (page 21).

8. Utilizing the Gender Technical Working Group’s gender self-assessment tool as a
   guide to improve the mission’s own performance assessment tool (page 22).




                                                                                        2
BACKGROUND
The Republic of South Africa is the predominant economic and military power in
southern Africa and is one of the United States’ main strategic partners for maintaining
stability and security on the African continent. South Africa’s long-term stability and
security, however, are threatened by the effects of the HIV/AIDS epidemic. The country
has the largest number of HIV-positive individuals in the world, nearly 6 million.

To assist South Africa in combating HIV/AIDS, the United States has provided
assistance through the President’s Emergency Plan for AIDS Relief (PEPFAR). 2 From
the inception of PEPFAR in 2003 through fiscal year 2008, over $1.3 billion in cumulative
funding has been made available for use in South Africa. Another $551 million was
authorized in fiscal year 2009. As PEPFAR has evolved from an emergency response
to a sustained public health intervention, it has focused on the dynamics that propel the
epidemic. One of those dynamics has been the role that gender norms and disparities
play in fostering conditions conducive to the spread of the disease. 3

The Role of Gender in the South African Epidemic
Although the 2008 national estimate of HIV prevalence among South Africans 2 years
old and older was 10.9 percent, certain groups displayed strikingly higher rates. 4 As
shown in figure 1, the HIV prevalence rate for women exceeded that for men for nearly
all age groups. In some groups the disparity between male and female prevalence was
particularly evident. For example, in the 20-24 age group, the HIV prevalence rate for
women was 21.1 percent, versus 5.1 percent for men; in the 25-29 age bracket, the
female prevalence rate of 32.7 percent was significantly higher than the corresponding
rate for men of 15.7 percent.




2
  The legislation creating PEPFAR in 2003 was amended by the Tom Lantos and Henry J. Hyde
United States Global Leadership Against HIV/AIDS, Tuberculosis, and Malaria Reauthorization
Act of 2008 (P.L. 110-293, July 30, 2008; referred to as the Lantos-Hyde Act), which authorized
$48 billion over 5 years (fiscal years 2009 to 2013) to combat those three diseases. Given that
the U.S. Government still uses the terms “PEPFAR” and “President’s Emergency Plan for AIDS
Relief” in referring to its HIV/AIDS activities in foreign countries, this report does likewise.
3
   USAID defines gender as the economic, social, political, and cultural attributes and
opportunities associated with being a man or a woman. The nature of gender definitions and
patterns of inequality vary among cultures and change over time.
4
  HIV prevalence is the percentage of a population (or subset thereof) that is infected with HIV.


                                                                                               3
                                              Figure 1. 2008 HIV Prevalence in South Africa, by Sex

                              35



                              30
    HIV Prevalence Rate (%)




                              25



                              20
                                                                                                            Male
                                                                                                            Female
                              15



                              10



                               5



                               0

                                    2-14   15-19 20-24 25-29 30-34 35-39 40-44 45-49 50-54 55-59      60+
                                                            Age Groups (Years)

                                   Source: Shisana O et al., South African national HIV prevalence,
                                   incidence, behaviour and communication survey 2008: A turning tide
                                   among teenagers? Cape Town: HSRC Press, 2009.

One factor contributing to these disparities is biological: women are at greater risk of
infection than men during heterosexual intercourse. Other factors, however, are rooted
in culture. In general, South Africa is a highly patriarchal society where men hold
dominant positions in familial and intimate relationships. These power imbalances
contribute to a number of attitudes that facilitate HIV transmission, such as reluctance by
men to use condoms and widespread acceptance of men engaging in concurrent
relationships with multiple partners. 5

These gender inequalities are also manifested in a climate of coercion and violence.
According to the Treatment Action Campaign, a leading South African HIV/AIDS activist
group, a woman is raped in South Africa every 26 seconds, and every 6 hours a South
African woman is murdered by her partner. Such violence, and the mere fear of it,
furthers HIV transmission by inhibiting women from insisting on consistent condom use
by their partners, disclosing their HIV status, and adhering to treatment regimens.

Economic conditions reinforce these cultural and biological factors, placing South African
women at greater risk for HIV infection. In South Africa, the poverty rate for female-

5
  Multiple concurrent partnerships (MCPs) are an effective mechanism for transmitting HIV. In an
MCP, a number of people form an essentially open sexual network. When a person becomes
infected with HIV, he or she has a very high viral load (viral load is a measurement of the amount
of active HIV in the blood of someone who is HIV-positive) and is most infectious. If this person is
part of a sexual network, HIV transmission can occur fairly easily and rapidly. In addition,
consistent and ongoing condom use is not readily sustained as it is in longer-term relationships.


                                                                                                                     4
headed households is double that of male-headed households. This vulnerability
creates incentives for women to enter into sexual relationships for economic gain, where
women’s powerlessness hinders them from requesting condom use or an end to multiple
partnering. In addition, mobile labor patterns among mineworkers, truck drivers, informal
traders, cross-border jobseekers and others—all pervasive in southern Africa—lead to
the higher likelihood of having multiple sexual partners, thereby increasing exposure to
HIV for both the itinerants and the communities they pass through. Finally, globalization
has affected traditional employment patterns, creating new situations where women are
working while some men cannot find jobs. Traditional male roles, however, were based
on the historically greater economic role played by men. According to one expert, these
changing conditions help fuel violence against women.

The Role of Gender in PEPFAR
The overall goals of gender programming in PEPFAR include strengthening program
quality and sustainability, providing equitable access for men and women, and
preventing results that may unintentionally harm women and men in varying degrees. In
support of these goals, the Office of the Global AIDS Coordinator set forth in its third
annual report to Congress the following five high-priority gender strategies:

•   Increasing gender equity in HIV/AIDS activities and services
•   Reducing violence and coercion against women
•   Addressing male norms and behaviors
•   Increasing women’s legal protection
•   Increasing women’s access to income and productive resources

The Lantos-Hyde Act reauthorizing PEPFAR appropriations has continued this
emphasis, moving gender to the forefront of the HIV/AIDS response. Among other
things, the Lantos-Hyde Act calls for specific targets to address the vulnerabilities of
females to higher risk of HIV infection (codified in 22 U.S.C. 7611(a)(20)(B)) as well as
an explicit, strategic focus on preventing gender-based violence (codified in 22 U.S.C.
7611(a)(20)(G)). In conjunction with this renewed focus, the legislation also mandates
that PEPFAR address the needs of survivors of such abuse, including post-exposure
prophylaxis protecting against HIV infection (codified in 22 U.S.C. 7611(a)(20)(H)).

At USAID/Southern Africa, a large number of PEPFAR activities contain elements that
address in varying degrees the high-priority gender strategies. 6 For this audit, we
selected five activities that addressed one or more of the strategies. Detailed
information on the audited activities is presented in the Audit Findings section.




6
  Although USAID/Southern Africa is a regional mission overseeing programs in several
countries, this audit focuses exclusively on bilateral programs conducted in the Republic of South
Africa.


                                                                                                5
AUDIT OBJECTIVE
As part of its fiscal year 2010 audit plan, the Regional Inspector General/Pretoria
performed this audit to answer the following question:

       Are  selected   gender-related     HIV/AIDS     activities       implemented      by
       USAID/Southern Africa achieving their main goals?

The main goals of each of the five activities reviewed are detailed in the following section
of this report. Appendix I contains a discussion of the audit’s scope and methodology.


Figure 2. HIV Prevalence Among Pregnant Women by Province, 2008




Source: 2008 National Antenatal Sentinel HIV & Syphilis Prevalence Survey, Department of
Health, South Africa




                                                                                          6
AUDIT FINDINGS
Are selected gender-related HIV/AIDS activities implemented by
USAID/Southern Africa achieving their main goals?
The audited gender-related activities of USAID/Southern Africa were performing well in
terms of striving to change social attitudes related to violence against women, promoting
positive male norms, and increasing incomes of female caregivers of orphans and
vulnerable children. Specifically:

•   The Project Concern International social mobilization program implemented a well-
    conceived, multifaceted strategy to change social norms that foster a climate
    conducive to violence against women.
•   Brothers for Life has embarked on a capably produced and well-received mass
    media campaign to promote condom use, responsible use of alcohol, reduction in the
    number of sexual partners, and male involvement in pregnancy and fatherhood.
•   The CARE voluntary savings and loan activity helped promote the economic security
    of orphans and vulnerable children along with their primary and secondary
    caregivers, who are primarily women in rural and underdeveloped areas.
•   EngenderHealth provided HIV testing and counseling services to 10,429 persons in
    fiscal year 2009, exceeding its planned level of performance.

However, EngenderHealth’s voluntary counseling and testing activity was only partially
successful, and the Women’s Justice and Empowerment Initiative did not achieve its
planned level of performance for fiscal year 2009. A detailed discussion of each activity
follows.

PCI Social Mobilization Program
The main goal of the PCI social mobilization program is to contribute to the reduction of
HIV transmission in South Africa by changing social norms related to violence against
women. This ambitious 4-year project, implemented by Project Concern International
(PCI) through a subagreement with the Academy for Educational Development’s
umbrella grants mechanism in South Africa, focuses on the provinces of KwaZulu-Natal
and the Western Cape. With initial funding of $4.6 million, the program completed its
inaugural year on September 30, 2009.

Program Got Off to a Good Start – PCI has developed a multifaceted strategy to
change social norms that foster a climate conducive to violence against women. First,
key civil society and public sector actors will be engaged and mobilized to combat this
problem. PCI has partnered with two longstanding community organizations, the
KwaZulu-Natal Network on Violence Against Women (KZN) and the Western Cape
Network on Violence Against Women (WCN), in this effort. During the engagement
phase, research will be conducted to identify and understand the social norms related to
violence against women that currently exist. Next, PCI plans to create an environment
where those norms can be brought into the public sphere for discussion. This will largely
be accomplished through a communications strategy using mass media to amplify the
messages developed during the analysis and engagement phases. Finally, PCI, KZN,


                                                                                       7
and WCN will work with their civil and public sector counterparts to implement activities
at which the existing social norms can be critically examined and the desired changes
effected.

Although it is premature to determine whether the PCI social mobilization program has
achieved its main goal, evidence indicates that the program is well conceived and being
capably implemented. Regarding the initial phases, workshop leaders in both provinces
identified social norms conducive to violence against women, staff prepared summaries
of professional literature on violence against women, and researchers conducted a
baseline panel survey. PCI also conducted a bus campaign in nine KwaZulu-Natal cities
where community dialogues were held and provincial leaders engaged. These activities
were thorough, insightful, and fully capable of informing a sound approach to program
design. In addition, key actors have made commitments to support the program. Most
significantly, KZN and WCN received commitments from their respective premiers (a
premier is essentially equivalent to a governor in the United States). Commitments were
also received from representatives of the South African Police Service in KwaZulu-Natal,
as well as from religious organizations and the South African Democratic Teachers
Union, with other commitments in both provinces being negotiated.

Just as important, PCI personnel are exceptionally well qualified and experienced. PCI’s
technical consultant, for example, holds a doctorate in cultural and media studies, has
over 20 years’ experience in HIV/AIDS communications research, and is one of the
authors of the 2008 national report on HIV prevalence. Moreover, PCI’s in-country
director has nearly 20 years of development experience in Africa, while its
communication manager has a diverse background including commercial advertising
and service in the Peace Corps.

Furthermore, PCI’s communication strategy proved itself during the 16 Days of Activism
campaign against violence against women in November and December 2009. The
centerpiece of the campaign involved a visual depiction of an abused woman’s face,
accompanied by a statement incorporating one of the enabling social norms indentified
in the analysis phase. The woman’s face progressively worsened during most of the 16-
day period. In Durban, we observed the Showstopper, a 25- by 20-meter edifice that
supported these images and served as a backdrop for various events, such as an
attempt by over 2,000 people to form the world’s largest human white ribbon. A smaller
display was also erected in Cape Town during this period, and the visual images were
used in other media such as print and mobile billboards. Finally, radio spots were
broadcast in both the Durban and Cape Town markets during the 16 Days campaign, a
focus group study of those radio messages was conducted, and detailed media
schedules were prepared for when those spots were to be aired.

Reduced Funding Threatens Future Results – Adequate funding, however, is
necessary for future success of the PCI social mobilization program. Despite the solid
foundation established thus far, the reduction in funding from $4.6 million in the
program’s first year to $3.1 million (a 33 percent reduction) jeopardizes the program’s
ultimate success. According to a PCI official, some first-year funding was conserved to
fully fund the 16 Days campaign; however, the reduction in funding means that there are
no more funds for either additional mass media activities or future grassroots support.
As a result, the program’s ability to capitalize on the momentum generated by the 16




                                                                                       8
Days campaign is constrained. If the shortfall persists, the program will likely have to
curtail its activities.
Mission officials stated that the decline in PCI’s funding was part of an across-the-board
reduction in funding for prevention activities at the direction of the Office of the Global
AIDS Coordinator. According to these officials, the reduction was part of an effort to
refine the focus of the U.S. Government’s HIV prevention activities in South Africa.
Mission officials added that this effort also involved the elimination of smaller activities
with funding less than $250,000 and the inclusion of an additional strategic prevention
initiative.

In conclusion, the PCI social mobilization program is a bold, well-conceived initiative
combining an evidence-based communications strategy with committed community
involvement. Jeopardizing the ultimate success of such a program for lack of adequate
funding after a productive initial investment has already been made seems ill advised.
Consequently, we are making the following recommendation.

   Recommendation 1. We recommend that in the face of the 33 percent
   decrease in program funding, USAID/Southern Africa develop and implement an
   action plan to help ensure that Project Concern International’s social mobilization
   program achieves its main objectives.

Brothers for Life
Brothers for Life is a 5-year, $28 million initiative launched in August 2009. Conceived
as a movement to engage men in the fight against HIV through the promotion of positive
male norms, Brothers for Life aims to promote condom use, responsible use of alcohol,
reduction in the number of sexual partners, and male involvement in pregnancy and
fatherhood. The activity is one of many implemented by The John Hopkins University in
South Africa on behalf of USAID, and is carried out with a number of key partners,
including the Sonke Gender Justice Network, UNAIDS, and over 30 local and
international nongovernmental organizations. The activity had spent approximately 50
percent of its $5.6 million first-year budget as of the audit; USAID and PEPFAR
contributed roughly 96 percent of those funds, with the remainder provided by UNICEF.

Although the activity was started shortly before the audit commenced and thus had only
a limited history, Brothers for Life was on track to accomplish its main goals. Most
notably, Brothers for Life had established a broad coalition of support. This included an
endorsement by the Deputy President of South Africa, which was read during the launch
in KwaZulu-Natal. According to the mission, more than 10,000 people attended the
launch, which received widespread media coverage. In addition to this high-level
political support, Brothers for Life had attracted participation by prominent South African
men from the worlds of entertainment and sports.

Brothers for Life’s mass media campaign, the main activity conducted as of the date of
the audit, had produced posters, billboards, television and radio spots, and the Brothers
for Life Web site. These ads were capably produced and well received.




                                                                                          9
CARE Voluntary Savings and Loan
The CARE voluntary savings and loan activity was one component of CARE’s Local
Links Project in Free State and Limpopo provinces to serve orphans and vulnerable
children. The Local Links Project started in May 2004 and was to end in June 2010, with
FY 2009 funding of $825,000. The main goal of the voluntary savings and loan activity
was to promote the economic security of orphans and vulnerable children and of their
primary and secondary caregivers. These caregivers, primarily women in rural and
underdeveloped areas, were the main targets for membership in voluntary savings and
loan groups.

The activity promoted economic security by providing a vehicle for group members to
pool savings and disburse loans among themselves. Loans were used for a variety of
personal and business purposes, and were usually repaid to the member pool within 3
months. After a defined duration, such as 6 months or 1 year, the pool liquidates and
group members share the proceeds equally. During FY 2009, a reported 10,934 loans
were made, with a total value of $535,217. 7

Through interviews with group members we found evidence that the activity was
achieving its main goal. For example, one member started a business selling beauty
products, another started a dressmaking enterprise, and a third expanded her residence.
In one group we visited, members were enhancing their economic security by
supplementing their regular savings and loan pool with an emergency fund that could be
used for funerals, sicknesses, and other emergencies. Although recordkeeping could be
improved, the errors the audit identified were primarily administrative and not indicative
of systemic or programmatic deficiencies.

EngenderHealth Voluntary Counseling and Testing Activity
The main goal of EngenderHealth’s activity in South Africa is to reduce the spread of
HIV and mitigate its impact by increasing men’s access to HIV-related services.
According to an internal 2007 study, EngenderHealth found that South African men are
much less likely than women to be tested for HIV, with men accounting for only
21 percent of clients receiving voluntary counseling and testing (VCT). The study
indicated that men underutilized VCT services for a variety of reasons, including societal
factors such as men’s gender socialization and institutional ones such as confidentiality
concerns and poor treatment by nurses.

To address these concerns and help achieve its main goal, EngenderHealth challenges
men to question traditional gender norms and take charge of their own health. This
includes accessing HIV-related services, chiefly through a mobile, male-friendly VCT
service that primarily serves the Soweto area of Johannesburg. 8 Despite having more
than 1 million people, Soweto has only 1 hospital, Chris Hani Baragwanath, which was
built during World War II. EngenderHealth’s mobile VCT service features a specially
equipped van with the faces of different men depicted on the sides along with the slogan
“I am not afraid to test.” Providers traveling in the van are trained by EngenderHealth to

7
  These loans were made in South African rand. Reported loans totaled 3,933,845 rand, which
equates to $535,217 at an exchange rate of 7.35 rand to the U.S. dollar.
8
  Some mobile VCT services are also provided in Mpumalanga Province.


                                                                                        10
be sensitive to the unique needs of men; training individuals to perform counseling and
testing and HIV prevention activities is another integral component of the program.

To determine whether EngenderHealth was achieving its main goal, we examined its
fiscal year (FY) 2009 reported results—the number of individuals counseled and tested,
as well as the number of individuals trained in the various activities noted above. For FY
2009, EngenderHealth had a target of 10,000 individuals for VCT and reported results of
11,689 individuals, comprising 6,509 males and 5,180 females. Our statistical sample
yielded a result of 10,429 individuals, 9 confirming that EngenderHealth met its target for
individuals’ counseled and tested. Nevertheless, EngenderHealth did not meet its three
major training targets for FY 2009. According to program officials, targets were not met
because the program had difficulty locating persons to train, and training that did not last
for at least 2 days was not considered sufficient by EngenderHealth to include in the
indicator.

Even though the program disaggregated its results by gender, as required by Agency
guidance, the program did not disaggregate its targets by gender, as is also required.
This made it more difficult to assess the program’s progress in increasing men’s
utilization of VCT services. The lack of gender-specific targets was not unique to
EngenderHealth, and is discussed in more detail on page 20. Nonetheless, given the
lack of sufficient health facilities in Soweto and the fact that the program met its overall
VCT target for FY 2009, the program was increasing men’s access to HIV-related
services. However, since the program fell short of its training targets, it is only partially
achieving its main goal.

Mobile CD4 Testing Machine Would Improve Service – As part of our fieldwork, we
visited a mobile VCT operation at the Kliptown informal settlement in Soweto. We
inquired what took place if a client received a positive HIV test result. Program officials
responded that, after counseling, the client would be referred to a health facility for a
CD4 test to ascertain his or her level of HIV infection, the crucial first step in determining
available treatment options. However, according to program officials, EngenderHealth
does not have a mobile CD4 testing machine because of a lack of funding and therefore
cannot provide this essential follow-on testing to its HIV-positive clients.

Given the lack of sufficient health facilities in Soweto, the same impediments that
discourage men from accessing conventional VCT services and which make
EngenderHealth’s mobile operation a vital asset—long waits and travel times—are also
likely to discourage men from undergoing CD4 testing. Consequently, the draft report
recommended that the mission assess the costs and benefits of providing funding for a
portable CD4 testing machine and to provide such funding if warranted. The mission
responded that the CD4 testing machine model approved for use in South Africa has not
yet been approved by the U.S. Food and Drug Administration, while the model approved
for use in the U.S. has not been approved by South African authorities. As a result, the
mission is unable to provide a CD4 testing machine and reagents for EngenderHealth,
and the recommendation in the draft report has been deleted (see appendix II for
details).

EngenderHealth Could Better Promote Its Services – The effectiveness of the mobile
VCT operation could also be enhanced through more active and creative promotion of

9
    This sample had a margin of error of +/- 4 percent at a confidence interval of 90 percent.


                                                                                                 11
those services. For instance, EngenderHealth partners with local nongovernmental
organizations to facilitate entry into informal settlements and publicize mobile VCT
drives. This outreach involves going door-to-door within the settlement to inform people
of the drive. EngenderHealth officials noted, however, that the outreach teams often had
difficulty covering the entire area that could be serviced by the van. We then asked
whether residents of informal settlements in Soweto typically had a radio or at least
access to one, and on learning that they did, suggested that EngenderHealth could use
the radio to publicize the drive.         Furthermore, EngenderHealth could send a
representative to host a radio program or call-in show to stimulate community discussion
of gender norms as well as generate publicity. The presence of community radio
stations in Soweto could reduce the cost of such initiatives. EngenderHealth officials
were enthusiastic about these ideas but generally lacked experience in crafting media
strategies. (See page 17 for a related discussion on exploiting synergies between
programs and the need for a full-time gender specialist.)

Women’s Justice and Empowerment Initiative
The Women’s Justice and Empowerment Initiative (WJEI) is implemented by Research
Triangle Institute, Inc. (RTI) under an original 3-year, $11.7 million cost-plus-fixed-fee
contract that was signed in September 2008. WJEI addresses two high-priority PEPFAR
gender strategies: increasing women’s legal protection and reducing violence against
women. To this end, the program’s main goal is to improve the quality of, and access to,
care, treatment, and justice for victims of sexual violence and abuse by strengthening
the capacity of the South African Government to develop and expand the Thuthuzela
Care Center (TCC) model. 10 RTI’s South African Government partner in this program is
the Sexual Offences and Community Affairs Unit (SOCA) of the National Prosecuting
Authority. 11

The TCC model aims to improve the care and treatment of sexual abuse survivors by
providing medical, legal, and counseling services in one location. By co-locating these
services and focusing on the quality and sensitivity of care, the TCC model helps reduce
the secondary traumatization that rape survivors can experience. The model also
includes access to post-exposure prophylaxis against HIV infection and long-term
counseling. Finally, the model strives to support victims, increase conviction rates, and
reduce the time to finalize cases by enhancing coordination among health professionals,
the police, and the South African judicial system.

USAID’s involvement with TCCs began before the initiation of WJEI. Under the Local
Governance Support Program (LGSP), which was also implemented by RTI and
scheduled to run through September 2010, USAID/Southern Africa supported the
establishment of seven TCCs. These seven TCCs built on an earlier network of 10
TCCs inaugurated by the South African Government.            WJEI was intended to
complement these efforts by establishing 23-29 additional TCCs.



10
   Thuthuzela means “be comforted” in Xhosa and Zulu, 2 of South Africa’s 11 official languages.
11
   Section 179 of South Africa’s 1996 Constitution and the National Prosecuting Authority Act
(South Africa, Act No. 32 of 1998) provide the prosecuting authority with the power to institute
criminal proceedings on behalf of the State and to do everything necessary related to this
function.


                                                                                             12
After completion of its first year, WJEI was not achieving its main goal. For the year
ended September 30, 2009, the program not only failed to reach its indicator targets but
also reported zeros for all quantitative performance data. Results were null because (1)
the eight TCCs planned for the first year had not been fully established 12 by
September 30, 2009, and (2) all WJEI performance indicators are based on data
collected at the TCCs to measure impact. Moreover, the delays in establishing the first
eight TCCs will make it more difficult to achieve the main goal by the end of the contract
term in September 2011. A WJEI official estimated that even a reduced target of 23
TCCs could not be established until at least February 2012. 13

According to program officials, no TCCs could be established because the site selection
survey, which should have been completed before WJEI commenced, was not started
until January 2009. Funding for the survey, which was provided by a non-U.S.
Government donor, was delayed. As a result, the survey was not completed until May
2009, and the final siting decisions were not made until June, precluding the
establishment of any TCCs before September 30, 2009. However, according to mission
officials, until June 2009 RTI had been indicating that it would achieve its targeted
results for the year ended September 30, 2009.

Even though the establishment of additional TCCs was a major goal of WJEI, the
program had other objectives that were not affected by the delay in completing the site
selection survey. However, overall progress in meeting these other objectives was less
than desired. For example, although the September 30, 2009, WJEI quarterly report
stated that one of the main activities for the project’s first year was the refurbishment of
seven TCCs, no TCCs had been refurbished as of that date. According to a program
official, WJEI coordinated with TCCs to determine their infrastructure needs and
submitted the list of requested furniture and equipment to SOCA for approval. The
approval process, which was coordinated by the South African Government, was
hindered by inordinate attention to minor details such as the color of furniture and the
type of wood it was made of. Many of the results under the WJEI contract are
contingent on the South African Government counterpart, which pays close attention to
all aspects of the project since SOCA will ultimately assume financial responsibility for
the TCCs established under WJEI.

Contract Ambiguities Contributed to Poor Results – The WJEI contract also
contained a second objective (objective 2) to “improve care and treatment for victims
assisted by the TCCs.” In the view of one USAID official who served as the contracting
officer’s technical representative for this project and is also a lawyer, this objective
applied to all TCCs and not merely the new ones to be established under WJEI.
Moreover, this task to improve services in WJEI was initiated as a result of a 2007
PEPFAR-funded assessment. The assessment identified a number of deficiencies in
TCC operations, including noncompliance with South African Department of Health
guidelines, which the LGSP program could not address because of funding limitations.


12
   According to mission officials, for a TCC to be considered “fully established,” a number of
criteria must be met. These include identification of an appropriate site, recruitment of required
staff, and installation of necessary furniture and equipment.
13
   The official made this estimate in speaking to auditors before a contract modification, which
was made to RTI. Subsequently, mission officials stated that RTI had committed to establishing
the 23 TCCs by September 2011.


                                                                                               13
During the delay in site identification, USAID suggested to RTI that activities under
objective 2 could be initiated at all TCC sites, including those established under LGSP,
to address the findings of the 2007 assessment and bring those sites into compliance
with the Department of Health guidelines. According to a USAID official, RTI responded
that working with the LGSP TCC sites was not part of the contract. Although mission
officials with the Regional Democracy & Governance Office (which manages WJEI)
concurred that USAID intended for RTI to improve services at the LGSP sites, several
officials concluded that the contract was too vague to be enforceable on this point.
Problems in the contracting process are discussed in more detail on page 15.

Questionable Spending Also Occurred – The fourth objective of the WJEI contract
was to “provide institutional support to SOCA in order to be able to sustain the TCC.” As
with objective 2, mission officials contended that objective 4 was vague and poorly
defined. According to these officials, the South African Government interpreted
objective 4 to include “South-South” exchanges intended to facilitate collaboration with
other countries regarding the TCC model. Consequently, South African officials
requested that the contract be modified to reflect their interpretation. Although the
contractor knew of this interpretation as early as July 2008, the contractor did not submit
a modification request addressing this issue until May 2009. The request was delayed
because of a change in contracting officer’s technical representatives for this program in
early 2009.

The program’s first South-South exchange involved the visit of a delegation from Benin,
which also has a WJEI program, in July 2009. Although the delegation stayed in South
Africa for 5 days, the agenda furnished in the contractor’s September 2009 quarterly
report indicated that no events were scheduled after lunch on 3 of those days, which
was wasteful and inefficient. RTI officials said that the agenda was undertaken together
by RTI, USAID, and SOCA, and added that traffic could have posed difficulties for the
delegation during site visits. When asked how the Benin exchange benefitted WJEI in
South Africa specifically, RTI officials said that South Africa could learn from Benin, a
resource-strapped country, how to apply the TCC model in remote, rural areas.
Although mission officials stated that the objectives of the exchange were mostly
achieved, the event could have been better planned to maximize productivity.

Similarly, the program incurred questionable costs that could be perceived as only
tangentially related to its main goals. For example, the WJEI launch was held in April
2009 at a luxury hotel in Cape Town, where a three-course gourmet lunch was served to
approximately 120 attendees. According to RTI officials, this launch cost roughly
$23,000, or $190 per person, more than double the U.S. Government’s daily meal rate
for Cape Town at that time. A USAID official who served as the contracting officer’s
technical representative for this project and attended the launch felt that the event
“lacked substance” in that it covered only very general information already familiar to the
attendees and presented little opportunity for discussion or real engagement. In this
official’s opinion, the goals of the launch could have been achieved through a less
expensive exercise, such as a press conference in Pretoria or a luncheon in conjunction
with a substantive workshop, rather than as a stand-alone event. Contributing to the
extravagant cost, communication between RTI and USAID was poor, with the
organization of the launch and the development of the program done entirely by SOCA
and RTI.




                                                                                        14
The WJEI contract states that allowable costs are limited to those that are reasonable,
allocable, and necessary, determined in accordance with Federal Acquisition
Regulations 52.216-7 and 52.216-8 and with USAID Acquisition Regulation 752.7003.
Federal Acquisition Regulation 52.216-7 incorporates the cost principles of FAR Subpart
31.2-Contracts with Commercial Organizations, which defines a reasonable cost as one
that “does not exceed that which would be incurred by a prudent person in the conduct
of competitive business” and is “generally recognized as ordinary and necessary” for the
conduct of the contractor’s business or for contract performance. Even though the event
was part of the program budget, in our opinion, given the event’s high cost per person,
limited utility, and the availability of less expensive alternatives, the cost of the launch
was not reasonable in accordance with subpart 31.2. As a result, these funds were not
put to their best use in achieving the objectives of WJEI. Consequently, we are making
the following recommendation.

   Recommendation 2. We recommend that USAID/Southern Africa determine the
   allowability of $22,745 in ineligible questioned costs arising from the Women’s
   Justice and Empowerment Initiative launch and recover from Research Triangle
   Institute, Inc., any amounts determined to be unallowable.

Conclusion – Contract ambiguities, coordination issues with the South African
Government, and less than optimal use of resources have contributed to the project not
achieving its goal of fully establishing eight new TCCs by September 30, 2009. Despite
these challenges, mission officials stated that by September 30, 2010 five TCCs had
been fully established with another three 80 percent operational as of December 1,
2010. Set-up of the next eight TCCs is underway with all sites selected and the majority
of staff hired and in place.

To improve WJEI, USAID/Southern Africa proposed terms of a contract modification to
RTI in December 2009. Among other things, the proposed modification contains
specific, detailed tasks that correct the ambiguities described above. Furthermore, the
proposed modification addresses the critical importance of improving adherence to
national Department of Health guidelines for post-exposure prophylaxis against HIV
infection. In our opinion, the proposed modification provides a firm foundation for
moving forward with WJEI, which would not exist otherwise. This modification was
ultimately executed in July 2010. The modification increased the total estimated cost to
$15 million but did not extend the contract past its original September 2011 completion
date. As a result of the proposed modification being executed, we are not making
additional recommendations on this matter.

Contract Not Adequately Reviewed
by Contract Review Board

  Summary: USAID policy requires that contracts exceeding $10 million be reviewed
  at various stages of the procurement process. However, the contract for the
  Women’s Justice and Empowerment Initiative was not reviewed in accordance with
  this policy. This occurred because mission officials initially believed that the
  threshold for review was higher than $10 million. As a result, the contract was not
  adequately reviewed, exposing the Agency to possible legal action and contributing
  to contract ambiguities.



                                                                                         15
Reviewing the legal aspects of contracts before their execution is a common business
practice. Similarly, USAID’s Automated Directives System (ADS) 302.3.1.2 requires that
acquisition actions, such as contracts, that exceed $10 million be reviewed by USAID’s
Contract Review Board (CRB). The CRB reviews these actions to minimize USAID’s
vulnerability to potential legal action, provide senior-level advice on contracting actions, and
to support contracting officers. As part of this effort, the CRB includes attorneys from the
Office of General Counsel experienced in Government contracting. ADS 302.3.1.2 also
requires that contracting officers submit actions to the CRB at the presolicitation,
competitive range determination, and preaward stages of the procurement process. In
submitting actions, the Contract Review Board Guidelines (a mandatory reference to ADS
302) recommends that contracting officers allow ample lead time to accommodate CRB
review and to respond to mandatory findings.

The contract for the Women’s Justice and Empowerment Initiative, an $11.7 million award,
did not fully comply with these requirements. According to the mission, the solicitation for
the project was published in October 2007, and a notice of award was made to RTI in July
2008; however, the CRB was first notified of the contract on August 18, 2008. In
accordance with ADS 302.3.1.2, the CRB should have been notified before the October
2007 solicitation. Moreover, the mission’s notification requested the CRB’s prompt
attention since the desired effective date for the proposed contract was September 1, 2008.

According to USAID officials, the late notification and the extremely short notice period
adversely affected the CRB process in several ways. First, had the CRB been notified in a
timely manner in accordance with Agency requirements, the CRB more likely would have
detected the contract ambiguities that hindered program implementation referred to in the
previous section. Second, the CRB acknowledged in its response to the mission that some
risk of protest still existed, thereby exposing the Agency to possible legal action. Finally,
the CRB instructed the mission that further submissions would not be necessary and
permitted the mission to document its responses to mandatory findings in the contract file.
This was contrary to ADS guidance (ADS 302.3.1.2.c(1)) requiring that the CRB be
informed in writing of corrective actions taken in response to such findings.

A mission official stated that he believed the threshold for referral was higher than the
award amount and thus did not notify the CRB until the error was recognized at the contract
negotiation stage. This unfamiliarity was due, in part, to the lack of past CRB submissions.
Nonetheless, the CRB indicated to the mission that this particular submission “cannot and
should not be taken as precedent for the future.” To help ensure that any future CRB
submissions are made in accordance with USAID requirements, we are making the
following recommendation.

   Recommendation 3. We recommend that USAID/Southern Africa (1) notify its
   acquisition staff of USAID requirements related to the Contract Review Board
   and (2) establish a management control to help ensure that all prospective
   awards that meet the requirements for review by the Contract Review Board are
   submitted in a timely manner to the Board.




                                                                                             16
Full-Time Gender Specialist
Could Help Maximize Program
Effectiveness

  Summary: Maximizing the effectiveness of U.S. Government programs is a vital
  USAID responsibility. However, several opportunities to identify and exploit
  synergies between programs were missed because there was no full-time gender
  specialist. Consequently, the effectiveness of several activities was not maximized.

Maximizing the efficiency and effectiveness of U.S. Government programs is a core
responsibility of all Federal employees. This can be accomplished, in part, by identifying
and exploiting the synergies that exist between activities with broadly similar objectives.
The gender-related activities examined in this report provide a particularly fertile area for
capitalizing on such opportunities.

Despite these chances to maximize effectiveness, mission officials were not able to do so.
As noted earlier, the EngenderHealth mobile VCT operation could have been more
effective if radio outreach had been utilized, but EngenderHealth officials lacked expertise
in this area. Media acumen, however, was a clear strength of PCI’s social mobilization
program, exemplified by PCI officials visiting radio stations to garner their support in
promoting the 16 Days of Activism campaign. Conversely, PCI’s Durban Showstopper
event would have been enhanced had counselors such as those trained by
EngenderHealth engaged in targeted outreach with the multitude of male spectators that
attended. Officials from one of PCI’s network partners underscored the importance of
men’s groups in eliminating violence against women, yet they lacked experience working
with these groups. EngenderHealth, whose South African operations are focused on men’s
health but are led by a woman, is uniquely poised to periodically assist PCI and its partners
and also serve as a bridge between men’s and women’s groups. Officials from both PCI
and EngenderHealth agreed that selected collaboration made sense and were willing to
discuss matters further.

These opportunities were not capitalized on because there was no single official with
detailed knowledge of the mission’s gender-related HIV/AIDS programming who could
identify and exploit potential synergies. The PCI and EngenderHealth activities, for
example, had different USAID activity managers with numerous additional responsibilities
that hindered them in assessing how strengths in other activities could complement their
own programs to increase effectiveness. Similarly, an official with comprehensive
knowledge of the mission’s gender-related HIV/AIDS programming could identify
questionable planned spending that could be used more effectively by other programs, as
was the case with the WJEI launch and EngenderHealth’s need for a mobile CD4 testing
machine.

The emphasis PEPFAR places on gender is reflected not only in PEPFAR’s authorizing
legislation and statements by senior officials, but also in the creation of the Gender
Technical Working Group (GTWG). This group was created by the Office of the Global
AIDS Coordinator in the State Department to provide assistance on the gender-related
aspects of HIV/AIDS programming. The GTWG has provided this assistance in part by
devising a number of best management practices, such as a self-assessment tool for



                                                                                          17
integrating gender throughout the range of PEPFAR programming and a “gender
continuum” for assessing how programs currently address gender and can be improved.

Despite this emphasis, staffing constraints typified by multiple responsibilities hampered the
mission from fully utilizing the best practices created by the GTWG. One mission official
noted that her duties as the health team’s “gender focal point”—which consisted mainly of
writing the technical area narrative for the country operational plan—were merely one of
several responsibilities. This official also conceded that the technical conference on gender
programming under PEPFAR produced by the GTWG was the first time that members of
the Health team focused collectively on gender issues. Consequently, the best practices
developed by the GTWG were not being utilized, thereby depriving the mission of additional
opportunities to increase effectiveness and efficiency.

A full-time gender specialist is the most practical and productive means of increasing
efficiency and effectiveness by identifying synergies between programs and incorporating
the best management practices developed by the GTWG. In addition, a full-time gender
specialist can provide other value-added services. These include drafting an overall
HIV/AIDS gender strategy, identifying any potential gaps in the mission’s programming, and
liaising with other U.S. Government agencies to promote gender integration of prevention,
care, and treatment activities.         Consequently, we are making the following
recommendations.

   Recommendation 4. We recommend that USAID/Southern Africa identify and
   implement steps to promote mutually beneficial collaboration between Project
   Concern International and EngenderHealth.

   Recommendation 5. We recommend that USAID/Southern Africa develop a
   plan to devote more staff resources to coordinating HIV/AIDS gender issues.

Public Awareness of U.S. Efforts
Needs To Be Improved

  Summary: Effective branding of USAID projects is an integral part of the Agency’s
  mission to advance American interests by strengthening relationships abroad.
  Nonetheless, public awareness of U.S. efforts against HIV/AIDS in South Africa
  was low, and two Thuthuzela Care Centers we visited lacked any USAID or U.S.
  Government branding. The centers were not branded at the direction of the South
  African Government, but no waivers were obtained from USAID. As a result,
  contractual requirements were not met and U.S. public diplomacy efforts hindered.

The importance of ensuring that the American people are appropriately recognized for
their generosity in funding U.S. foreign assistance has been a longstanding U.S.
Government objective. For example, section 641 of USAID’s framework legislation, the
Foreign Assistance Act of 1961, codified as amended in 22 U.S.C. 2401, specifies that
programs under the act be identified appropriately overseas as “American aid.” More
recently, the rising importance of development as part of the United States’ post–
September 11 national security strategy increased the need for U.S. foreign assistance
activities to be more fully identified in host countries as being provided by the United




                                                                                           18
States. This need is addressed in ADS 320, which contains USAID’s branding and
marking requirements.

Public awareness of the United States’ response to the global HIV/AIDS pandemic is
important. According to a report from the Center for Strategic and International Studies,
“As instruments of U.S. global soft power become ever more important, PEPFAR
provides a source of goodwill by helping to stabilize disease-shattered economies and
by reducing the security threats that typically accompany economic and political
instability.” In our opinion, however, the benefits of this goodwill cannot be maximized
unless public awareness is improved.

In South Africa, a low percentage—only about 20 percent—of those surveyed on behalf
of the U.S. Embassy in late 2008 were even aware that the United States provided
South Africa with HIV/AIDS assistance. These results were confirmed during this audit.
During our visit to the Durban Showstopper, for instance, we found that only 2 out of 34
respondents knew that the U.S. Government was funding the event, and those 2 were
from organizations affiliated with the KwaZulu-Natal Network on Violence Against
Women.

Logos Have Proliferated – The 2008 survey found some possible explanations for this
low level of awareness. Although 25 percent of respondents identified the USAID logo
when it was shown to them, only 13 percent recognized the PEPFAR logo. In Gauteng
Province the disparity was even greater, as 32 percent recognized the USAID logo but
only 14 percent the PEPFAR logo. Since the United States’ HIV/AIDS efforts in South
Africa are carried out not only by USAID but also the Centers for Disease Control and
Prevention, the Department of Defense, and the Peace Corps, the issue of branding is a
sensitive one, according to an Embassy official, as all agencies want their particular
logos displayed.

Two Thuthuzela Care Centers Visited Had No Branding – The lack of public
awareness also can be attributed to the lack of USAID branding observed during the
audit. Specifically, we visited two Thuthuzela Care Centers (TCCs) at Tembisa and
Kopanong hospitals in Gauteng that were established by RTI under the Local
Governance Support Program contract. This contract contains a provision stipulating
that USAID-financed project locations be suitably marked with the USAID emblem. The
contract also states that authority to waive this and other marking requirements is vested
with the mission director.

Despite these contractual requirements, neither the Tembisa nor the Kopanong TCCs
displayed the required USAID marking or any other acknowledgment of U.S.
Government support. Furthermore, no request to waive the marking requirements was
made by RTI. RTI officials said that such branding was “not allowed” by the National
Prosecuting Authority on the basis that any signage outside the TCC could not show all
donors who had assisted the project.

After our discussions with RTI, mission officials stated that the branding issue had been
“clarified” with SOCA. According to these mission officials, SOCA does not oppose
signage at TCCs and was only seeking clarification on what would be acceptable.
These officials also stated that SOCA agreed that all U.S. Government-supported TCCs
will have appropriate acknowledgment of U.S. Government support.



                                                                                       19
Low awareness of the United States’ international HIV/AIDS activities keeps the public
diplomacy aspects of these initiatives from achieving their full potential. This is a
particularly serious problem in Africa, as other donors increasingly turn to financing
tangible, long-lasting projects whose funding sources are more widely known by the
public. Given this low level of public awareness and USAID’s explicit requirement for
branding, we are making the following recommendation.

      Recommendation 6.         We recommend that USAID/Southern Africa (1)
      immediately correct the noncompliance with Local Governance Support Program
      contractual branding requirements found at the Tembisa and Kopanong
      Thuthuzela Care Centers, and (2) devise a branding and marking plan for all
      Thuthuzela Care Centers to be established under the Women’s Justice and
      Empowerment Initiative that is both acceptable to the South African Government
      and in accordance with contractual branding requirements.

Performance Targets Were Not
Disaggregated by Gender

     Summary: Agency policy calls for the collection and analysis of sex-disaggregated
     data for individual-level indicators and targets. Although results were generally
     disaggregated by gender, targets were not. According to USAID, such gender-
     based targeting has not been an historical focus of the U.S. Government’s
     international HIV/AIDS efforts. Failure to set these targets makes it more difficult
     for program managers to assess whether gender equity has been enhanced by
     USAID programming.

USAID has long recognized that collecting sex-disaggregated data is a critical component
of performance management. To this end, an additional-help reference to ADS 200.5
specifies that targets for individual-level indicators should be disaggregated to establish
expectations about a program’s intended impact on men and women. 14 This guidance was
reinforced in the FY 2009 country operational plan, which stated that “PEPFAR South
Africa will work to set sex-disaggregated targets for all reporting indicators” as part of its
efforts to increase gender equity in HIV/AIDS services. As noted in the Background section
of this report, increasing gender equity is one of PEPFAR’s five high-priority gender
strategies.

Despite this intent, and even though reported results were broken out by gender, none of
the indicator targets set by partners for the activities reviewed in this audit were
disaggregated by gender. This was generally true for activities beyond the scope of the
audit as well.

According to mission officials, disaggregating targets by gender has not been an historical
focus of PEPFAR. These officials noted that initially there may have been a lack of
knowledge on how to target by gender, but now there is a baseline of gender-based results
to inform such target setting in the future.


14
  Performance Monitoring and Evaluation TIPS No. 8, “Establishing Performance Targets.” TIPS
No. 8 is listed as an Additional Help reference in ADS 200.5.


                                                                                            20
The lack of gender-specific targets deprives USAID of a powerful tool to motivate its
partners and hold them accountable for results. Moreover, setting such targets forces
partners to determine how the epidemic has affected men and women differently and what
strategies are needed to ensure equitable access to the services being measured by the
performance indicator. Finally, comparison of actual results by gender against such targets
would enable program managers to monitor gender equity and adjust strategies as
necessary. Consequently, we are making the following recommendation.

   Recommendation 7. We recommend that USAID/Southern Africa establish
   policies and procedures to ensure that gender-specific targets for its HIV/AIDS
   indicators are set at the partner-level, where appropriate, in the next planning
   cycle.

Partner Monitoring
Could Be Enhanced

  Summary: Agency guidance requires the development of appropriate and efficient
  internal controls. To its credit, the mission has begun piloting a tool to improve
  monitoring of its HIV/AIDS activities. This tool can be improved by using features
  of the Gender Technical Working Group’s gender self-assessment tool as a guide.
  However, mission officials involved in developing the monitoring tool were unaware
  of the gender self-assessment tool. Failure to include this tool diminishes the
  effectiveness of the pilot monitoring initiative regarding gender issues.

ADS 596.3.1 requires USAID officials to develop and implement appropriate, cost-effective
internal controls that produce results and assure the financial integrity of transactions. To
their credit, USAID and the Centers for Disease Control and Prevention in South Africa
have developed the South African PEPFAR Partner Performance Assessment tool
(SAPPPA) to assist in monitoring these activities. The SAPPPA tool is currently in the pilot
phase; however, this tool could be improved.

As noted previously, the Office of the Global AIDS Coordinator has established a
Gender Technical Working Group to provide assistance on the gender-related aspects of
HIV/AIDS programming. Among other things, the working group has developed a self-
assessment tool for integrating gender into PEPFAR programs. The tool is divided into
technical areas, such as adult care and treatment, and then describes the different
elements that would be included in integrating gender concerns in that particular part.

The SAPPPA tool is similarly divided into a number of modules based on technical
areas.     Each module comprises inquiries and procedures based on various
administrative and operational components of program management. In the prevention
module that we surveyed, however, only a few superficial procedures pertained to
gender. Mission officials stated this was the case for other modules as well. Since
gender affects all aspects of PEPFAR programming, the SAPPPA tool should cover this
vital feature of partner performance. Mission officials responsible for developing the
SAPPPA tool in conjunction with CDC, however, were unaware of the gender self-
assessment tool created by the working group. Failure to incorporate the gender self-
assessment tool diminishes the effectiveness of SAPPPA regarding gender issues, while
using the ready-made elements established by the working group provide the mission



                                                                                          21
with insight into the way those issues are being addressed in various technical areas.
As a result, we are making the following recommendation.

   Recommendation 8.         We recommend that USAID/Southern Africa, in
   coordination with the Centers for Disease Control and Prevention as necessary,
   utilize the self-assessment tool prepared by the Gender Technical Working
   Group as a guide to improve the capability of the South African PEPFAR Partner
   Performance Assessment tool.




                                                                                    22
EVALUATION OF
MANAGEMENT COMMENTS
In its response to the draft audit report, USAID/Southern Africa agreed with 6 of 9
recommendations. Based on management’s comments, we deleted Recommendation 2
in the draft audit report from the final audit report and renumbered Recommendations 3
through 9 accordingly.        Those comments and the audit team’s evaluation are
summarized below.

Regarding Recommendation 1, the draft audit recommended that USAID/Southern
Africa reconsider reprogramming sufficient funds to maintain the funding of the Project
Concern International social mobilization program at its first-year level.           The
recommendation in the final report was amended based on consultations with Office of
Inspector General headquarters. The mission responded to the draft recommendation
by stating that it is seeking approval from the Office of the Global AIDS Coordinator to
increase the program’s FY 2011 budget by $851,602. Although made in response to the
draft recommendation, the mission’s action meets the basic intent of the final
recommendation while balancing the competing priorities of a complex and evolving HIV
portfolio. Based on the mission’s actions, the supporting documentation provided, and
the role of the Office of the Global AIDS Coordinator in approving funding decisions, we
consider that a management decision has been reached and final action taken on
Recommendation 1.

Regarding Recommendation 2 (Recommendation 3 previously), the draft audit
recommended that USAID/Southern Africa determine the allowability of $22,745 in
ineligible questioned costs arising from the Women’s Justice Empowerment Initiative
launch and recover any unallowable amounts. In response, the mission estimated that a
management decision would be provided within 30-90 days of the final audit report.
Consequently, a management decision has not yet been reached on Recommendation
2.

Regarding Recommendation 3 (Recommendation 4 previously), the draft audit
recommended that the mission notify its acquisition staff of USAID requirements related
to the Contract Review Board and establish a management control to ensure
compliance. The mission agreed with the first part of the recommendation and stated
that its acquisition staff has been reminded of Contract Review Board policies and
procedures. Regarding the second part, the mission indicated that existing operational
controls, including supervision, are sufficient. Given the isolated nature of this incidence
of noncompliance and the specific circumstances surrounding it, we believe that the
mission’s actions and current supervision are sufficient to prevent future instances of
noncompliance. Based on this analysis, the mission’s comments, and the supporting
documentation provided, a management decision has been reached and final action
taken on Recommendation 3.

Regarding Recommendation 4 (Recommendation 5 previously), the draft audit
recommended that the mission promote mutually beneficial collaboration between
Project Concern International and EngenderHealth. The mission agreed with the



                                                                                         23
recommendation and indicated that its activity managers for these programs have
already initiated steps to increase collaboration. Upon further inquiry, the mission stated
that it intends to accomplish this via a meeting with all partners working in gender issues
and particularly gender-based violence in order to discuss the U.S. Government’s
interagency gender strategy and improve coordination. The mission plans to hold this
meeting within six to nine months from the date of its comments. Based on the
mission’s comments, a management decision has been reached on Recommendation 4.

Regarding Recommendation 5 (Recommendation 6 previously), the draft audit
recommended that the mission assess the cost and benefits of hiring a full-time
HIV/AIDS gender specialist and to hire such a specialist if determined to be beneficial
and necessary funding is available. The mission agreed with the recommendation and
stated that it expects to complete the assessment by November 1, 2010. The
recommendation in the final report was revised based on consultations with Office of
Inspector General headquarters.       Although made in response to the draft
recommendation, the mission’s comments satisfy the intent of the final recommendation.
Consequently, we consider that a management decision has been reached on
Recommendation 5.

Regarding Recommendation 6 (Recommendation 7 previously), the draft audit
recommended that the mission immediately correct noncompliance with branding
requirements at the Tembisa and Kopanong Thuthuzela Care Centers as well as devise
a branding and marking plan for all future centers to be established under the Women’s
Justice and Empowerment Initiative. The mission responded that the Tembisa and
Kopanong Thuthuzela Care Centers are now outfitted with appropriate signage
recognizing USAID support. Furthermore, the mission stated that the July 2010
modification to the Women’s Justice and Empowerment Initiative contract clarifies that
all Thuthuzela Care Centers shall be branded with the USAID logo. In our opinion, this
language eliminates the ambiguity regarding this matter in the original contract and is
responsive to the recommendation. Based on management’s comments and the
supporting documentation provided, a management decision has been reached and final
action taken on Recommendation 6.

Regarding Recommendation 7 (Recommendation 8 previously), the draft audit
recommended that the mission establish policies and procedures to ensure that gender-
specific targets for HIV/AIDS indicators are set at the partner level, where appropriate, in
the next planning cycle. The mission responded that it plans to require all implementing
partners to set gender-specific targets for the 25 Technical Area Summary Targets
where gender is relevant as well as for HIV sexual prevention indicators. The mission
expects to finalize these targets by March 2011. Based on management’s comments, a
management decision has been reached on Recommendation 7.

Regarding Recommendation 8 (Recommendation 9 previously), the draft audit
recommended that the mission coordinate with the Centers for Disease Control as
necessary to utilize the self-assessment tool prepared by the Gender Technical Working
Group as a guide in improving the South African PEPFAR Partner Performance
Assessment (SAPPPA) tool. The mission responded that it will request that each
interagency technical working group utilize the self-assessment tool in preparing
upcoming work plans. While such utilization would be beneficial, the mission’s response
does not address using the self-assessment tool to improve the SAPPPA tool. As a
result, a management decision has not been reached on this recommendation.


                                                                                         24
                                                                              APPENDIX I



SCOPE AND METHODOLOGY
Scope
The Office of Inspector General conducted this audit in accordance with generally
accepted government auditing standards. 15 Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis
for our findings and conclusions based on our audit objective. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions based
on our audit objective, which was to determine whether selected gender-related
HIV/AIDS activities implemented by USAID/Southern Africa in South Africa were
achieving their main goals. Audit fieldwork was conducted at USAID/Southern Africa
from November 9, 2009, to February 10, 2010. The audit covered selected gender-
related HIV/AIDS activities conducted by USAID/Southern Africa in its bilateral HIV/AIDS
program during FY 2009 and through the conclusion of fieldwork.

The selection of those gender-related activities to be included in the scope of this audit
was made by the audit team with input from USAID/Southern Africa officials. Activities
were selected primarily based on their congruence with one or more of the five high-
priority gender strategies specified by the U.S. Congress (page 5). In addition, ensuring
a geographical balance among the activities selected was a basis for consideration.

In planning and performing the audit, the audit team made inquiries relating to the
respondents’ knowledge of actual or suspected fraud in the mission’s gender-related
HIV/AIDS activities. In conjunction with these inquiries, we also assessed the risk of
illegal acts. Furthermore, we assessed management controls for ensuring compliance
with applicable laws, regulations, and policies regarding those activities. Specifically, we
reviewed the following:

•     Reports required under the Federal Managers’ Financial Integrity Act of 1982 16
•     Implementing partner contracts and agreements
•     FY 2009 country operational plan
•     Performance measures and results
•     Trip reports prepared by mission officials and consultants
•     South African PEPFAR Partner Performance Assessment modules
•     Data quality assessments
•     2009 semiannual and annual progress reports.

As part of the audit planning process, we also attended the conference entitled
“Strengthening Gender Programming in PEPFAR: Technical Exchange of Best
Practices, Program Models and Resources.”          This conference was held in
Johannesburg, South Africa, October 28-30, 2009. Further, we reviewed the 2002
Nelson Mandela/Human Sciences Research Council Study of HIV/AIDS, the 2005 South
African National HIV Prevalence, HIV Incidence, Behavior and Communication Survey,


15
     Government Auditing Standards, July 2007 revision (GAO 07-731G).
16
     Public Law 97-255, as codified in 31 U.S.C. 1105, 1113 and 3512.


                                                                                         25
                                                                             APPENDIX I


and the South African national HIV prevalence, incidence, behaviour and communication
survey 2008: A turning tide among teenagers?.

We also conducted interviews and other inquiries with officials from USAID/Southern
Africa, the U.S. Embassy in Pretoria, the Office of the Global AIDS Coordinator, the
Gender Technical Working Group, the Office of Acquisition and Assistance in
Washington, D.C., implementing partners, and program beneficiaries and participants.

Methodology
To answer the audit objective, we first determined the main goals of the selected
activities through interviews and reviews of contracts, agreements, and other
documentation. Next, we determined the best measurements, whether quantitative or
qualitative, for assessing whether those main goals were being achieved. Finally, we
devised procedures for obtaining evidence consistent with those measurements and
evaluated such evidence accordingly. Detailed methodology for the selected activities is
given below.

Project Concern International (PCI) Social Mobilization Program – Given the early
stage of this program and its focus on the 16 Days of Activism against Violence Against
Women, we determined that a qualitative measure of achievement would be most
appropriate. To this end, we judgmentally selected key milestones from PCI’s
subagreement with the Academy for Educational Development that we deemed
necessary for the program to be on track to achieve its main goal. These key milestones
included events such as the development of a communications strategy and the launch
of the resulting campaign, analysis phase research, and sectoral expressions of
commitment. We then reviewed documentation and observed various communications
products. Audit fieldwork included visits to the Showstopper event in Durban (KwaZulu-
Natal) and to the offices of PCI.

EngenderHealth – Given the established nature of this activity and the strong nexus
between its indicators and main goals, we selected the fiscal year (FY) 2009 reported
results for the number of individuals counseled and tested as well as the number of
individuals trained in various activities. For the number of individuals counseled and
tested, we randomly selected 40 counseling and testing events, such as mobile site
visits, out of 147 total events during FY 2009. These 40 events reportedly involved
2,021 individuals out of 11,689 total. Testing included tracing worksheet totals to
records of individuals tested (prepared by the nurses administering the test), which in
turn were traced to consent forms that individuals were required to complete and sign
before the test was administered. During our visit to the Kliptown section of Soweto
(Gauteng Province), we observed the mobile voluntary counseling and testing service
and those consent procedures in action. Errors noted during our sampling were
projected to the population, yielding a result of 10,429 individuals with a +/-4-percent
margin of error at a 90-percent confidence interval. Sample results were reviewed by
the Office of Inspector General statistician. Since EngenderHealth officials reported that
they did not reach their training targets, we concluded that the risk of an error in which
the targets were actually reached was low for those indicators. Consequently, our
testing of these indicators consisted of inquiries of EngenderHealth officials, confirming
those results.




                                                                                       26
                                                                             APPENDIX I


Brothers for Life – Because the activity was launched just before the start of the audit,
we concluded that a qualitative assessment would be most appropriate. Therefore, we
focused on whether the activity was successful in garnering political support and in
implementing the initial stages of its mass media campaign. In answering the audit
objective, we reviewed documentation, conducted interviews, and observed
communications products.

CARE Voluntary Savings and Loan – We concluded that observation, inquiry, and
review of documentation would be the most efficient means of answering the audit
objective, given available audit resources. To this end, audit fieldwork included site
visits to Mohlaba Cross and Tzaneen in Limpopo Province, where we interviewed seven
members of a voluntary savings and loan group and visited CARE offices. We also
reviewed documentation, such as an interim evaluation of the activity and records of 60
voluntary savings and loan groups.

Women’s Justice and Empowerment Initiative – We determined that FY 2009
indicator results would provide the best and most objective measure of program
achievement. Since WJEI reported results of zero for FY 2009, we concluded that the
risk of an error in which the targets were actually reached was low and decided to test all
indicators through confirmation with contractor officials. We also conducted fieldwork at
the Kopanong and Tembisa Thuthuzela Care Centers in Gauteng Province. Although
these centers were established under the Local Governance Support Program, they are
similar to those to be established under WJEI. In addition to interviews with contractor
and mission officials, we spoke with nurses, reviewed trip reports, and examined
contractual documents.




                                                                                        27
                                                                            APPENDIX II



MANAGEMENT COMMENTS


September 29, 2010

MEMORANDUM

TO:             Regional Inspector General/Pretoria, Christine Byrne

FROM:           USAID/Southern Africa Mission Director (acting), Cathy Moore

SUBJECT:        Audit of USAID/Southern Africa’s Gender-Related HIV/AIDS Activities

REFERENCE: RIG Pretoria Draft Report No. 4-674-10-XXX-P dated 24 August 2010

Thank you for the opportunity to comment on the draft audit of USAID/Southern Africa’s
Gender-Related HIV/AIDS Activities. I want to express my sincere appreciation for the
thoughtful approach to this audit. We particularly appreciated the audit team’s effort to
learn about gender norms and disparities in South Africa at the onset of the Audit, by
participating in the PEPFAR Gender Conference, and by reviewing the HSRC report on
the epidemic in South Africa.

Following are USAID/Southern Africa’s management comments in response to the nine
recommendations to strengthen USAID/Southern Africa’s gender-related HIV/AIDS
activities. Each response also includes a plan for corrective action. The instances
where we disagree are also provided below with an explanation of the reasons.

   Recommendation 1. We recommend that, given the initial success of Project
   Concern International’s social mobilization program, USAID/Southern Africa
   reconsider reprogramming sufficient funds to, at a minimum, maintain the funding
   of the Project Concern International social mobilization program at its first-year
   level.

We appreciate RIG’s assessment of the success of PCI social mobilization program. As
a result of its own review of the Health portfolio, USAID/Southern Africa is seeking
approval from Office of the Global AIDS Coordinator (OGAC) to reprogram PEPFAR
funding to increase PCI’s FY 11 budget by $851,602. In addition, it is anticipated that
PCI will receive another $200,000 in FY 11 from OGAC for the approved Gender
Challenge proposal that PEPFAR/SA submitted. While this is not quite the original level,
USAID/SA is confident that with these additional funds and increased coordination to
enhance synergies among projects, PCI will reach its targets and the project will attain
its intended outcomes. It is not possible for USAID to reprogram any additional funds at
this time as we have already completed substantial reprogramming to support the scale
up of urgent evidence-based prevention efforts including the initiation of high volume



                                                                                        28
                                                                             APPENDIX II


medical male circumcision services in three provinces to respond to SAG requests and
OGAC recommendations.

   Recommendation 2. We recommend that USAID/Southern Africa 1) assess the
   cost and benefits of providing funding for a portable CD4 testing machine to be
   used in EngenderHealth’s mobile VCT operations and 2) provide such funding, if
   the perceived benefits exceed the cost.
   .
USAID in South Africa supports the use of portable CD4 machines in an exploratory way
to determine the cost-effectiveness of point of care testing in differing settings. We also
support the use of TB point of care tests in the same way. The PIMA machine produced
by Inverness has been accepted by the National Health Laboratory Service (NHLS)
South Africa, for point of care mobile use. The PIMA machine is not yet approved by the
FDA, so we are unable to procure them. Inverness has loaned a certain number to our
partners with research capabilities. EngenderHealth is not one of the partners selected
for the cost-effectiveness analyses. Point Care in Boston, does produce a point of care
CD4 machine that is FDA approved, but the NHLS is not in favor of using that machine
for our purposes. We will be unable to provide a CD4 mobile testing machine and
reagents for EngenderHealth. We will share our point of care testing results with them
when they are available. We suggest Recommendation 2 be modified or removed in the
final audit report in consideration of this additional information.

   Recommendation 3. We recommend that USAID/Southern Africa determine the
   allowability of $22,744.79 in ineligible questioned costs arising from the Women’s
   Justice and Empowerment Initiative launch and recover from Research Triangle
   Institute, Inc., any amounts determined to be unallowable.

Thank you for noting the questioned costs. We estimate a management decision will
follow within 30-90 days of the final audit report.

   Recommendation 4. We recommend that USAID/Southern Africa (1) notify its
   acquisition staff of USAID requirements related to the Contract Review Board
   and (2) establish a management control to help ensure that all prospective
   awards that meet the requirements for review by the Contract Review Board are
   submitted in a timely manner to the Board.

All RAAO staff have been reminded of the policy and procedures concerning the Contract
Review Board. In addition, covered actions have been reviewed and no further instances
of non-compliance have been identified. We therefore believe existing operational controls
including supervision are sufficient. During the 2011 FMFIA review process, we will again
review files to re-confirm compliance.

   Recommendation 5. We recommend that USAID/Southern Africa identify and
   implement steps to promote mutually beneficial collaboration between Project
   Concern International and EngenderHealth.

USAID/SA welcomes this recommendation. USAID/SA has already initiated steps to
increase collaboration between PCI and Brothers for Life. The activity managers for PCI
and Engender Health have begun taking steps to promote mutually beneficial
collaboration between Engender Health and PCI. Further, USAID/SA plans to organize
a partners meeting in the next 6-9 months as a concrete step that will enhance the


                                                                                        29
                                                                             APPENDIX II


collaboration among all the USAID supported partners working in the area of GBV.

   Recommendation 6. We recommend that USAID/Southern Africa 1) assess the
   cost and benefits of hiring a full-time HIV/AIDS gender specialist and 2) hire such
   a specialist if the perceived benefits exceed the cost and the necessary funding
   is available.

Thank you for recommending that we assess the costs and benefits of hiring a full-time
gender specialist. We will conduct this assessment while we draft the 2011 COP
narrative and management and staffing database. The assessment will be completed by
approximately November 1, 2010. If we determine that perceived benefits exceed the
cost, are certain funding and space are available, and obtain the necessary approval to
add a new position, the specialist may be hired in approximately November 2012 (since
FY 2011 COP funding will not be available before then.) We suggest the final audit
report modify the second part of the recommendation to include a decision to hire, in lieu
of actually hiring the specialist, given the factors beyond cost-benefit analysis and the
long lead time before such an encompassing recommendation could be closed.

   Recommendation 7. We recommend that USAID/Southern Africa (1) immediately
   correct the noncompliance with Local Governance Support Program contractual
   branding requirements found at the Tembisa and Kopanong Thuthuzela Care
   Centers, and (2) devise a branding and marking plan for all Thuthuzela Care Centers
   to be established under the Women’s Justice and Empowerment Initiative that is
   both acceptable to the South African Government and in accordance with contractual
   branding requirements.

This has been corrected. The WJEI contract (Section D.3) allows for different levels of
branding visibility in cases where the audience needs to perceive South African
Government (SAG) ownership of the program and in cases in which the audience would
react negatively to USAID identity visibility. The SAG’s interpretation of this clause, and
subsequent meetings to discuss this, is what led to the delay in placing signs in Tembisa
and Kopanong Thuthuzela Care Centers (TCCs). This has since been resolved and the
appropriate signage (with the USAID logo) is in place at both the Tembisa and
Kopanong TCCs. The July 2010 WJEI contract modification (Section C.IV, Task 1.6)
further clarified that all project TCCs shall be branded with the USAID logo/identity.

   Recommendation 8. We recommend that USAID/Southern Africa establish
   policies and procedures to ensure that gender-specific targets for its HIV/AIDS
   indicators are set at the partner-level, where appropriate, in the next planning
   cycle.

An initial set of interviews was conducted between the USAID/South Africa Health Office
M&E Advisor and the Gender Audit team approximately one year ago. During these
interviews the idea of incorporating gender into partner-specific targets was raised. It
was agreed that the Health Office would disaggregate targets for selected FY 2011 COP
indicators into males and females.

Currently the Health Office captures quarterly results from its implementing partners on a
total of 87 indicators, spanning all HIV and AIDS (PEPFAR-related) program areas. Out
of those indicators, the only ones in which results are not disaggregated by gender are
Vertical Transmission (because results are specific to females), Male Circumcision, HIV-


                                                                                         30
                                                                              APPENDIX II


TB, Lab Services, and Human Resources for Health. At the same time, the Health
Office has a new Performance Management Plan (PMP) in which 12 Intermediate
Results and 12 associated Sub-Intermediate Results are, where applicable,
disaggregated by gender. (Note that approximately one half of the PMP indicators are
also part of the 87 collected on a quarterly basis.)

Finally, a total of 25 “Technical Area Summary Targets” are required by OGAC for the
FY 2011 COP cycle. Of those in which gender is relevant, all are disaggregated by
gender except for indicators relating to HIV sexual prevention.

Implementation
The Health Office plans to require all implementing partners to set targets for the FY
2011 period of implementation according to the 25 Technical Area Summary Targets
outlined above. In addition, the Health Office will require gender-specific targets to be
set for those HIV sexual prevention indicators that currently have no gender
disaggregation requirements issued from OGAC.

Target setting will be a twofold process for the FY2011 COP. First, the 25 “Technical
Area Summary Targets” will be set at the USG level by technical teams. These will be
sent to OGAC along with the full set of COP materials. Second, in October 2010 all
implementing partners supported by the USAID/South Africa Health Office will receive a
template via the USG Data Warehouse in which the 25 Technical Area Summary
Targets are listed, with instructions to estimate targets for the 2011 programming period.

Activity Managers and the Strategic Information team will review the estimated targets
with the goal of finalizing and documenting the targets by mid-November 2010. These
partner-specific targets will be appropriately disaggregated by gender to ensure that
gender is thoughtfully incorporated into project performance monitoring.

   Recommendation 9. We recommend that USAID/Southern Africa, in
   coordination with the Centers for Disease Control and Prevention as necessary,
   utilize the self-assessment tool prepared by the Gender Technical Working
   Group as a guide to improve the capability of the South African PEPFAR Partner
   Performance Assessment tool.

USAID will request that each interagency technical working group utilize the self-
assessment tool as it prepares work plans for activities funded under the FY 2011
Country Operational Plan. We will assess and document the extent to which this tool
improves the work plans and, based on that assessment, determine whether we will
continue to use the tool in future years.

Thank you for the opportunity to comment.


                              Sincerely yours,



                              Cathy Moore /s/
                              Mission Director (acting)



                                                                                            31
U.S. Agency for International Development
       Office of Inspector General
      1300 Pennsylvania Avenue, NW
          Washington, DC 20523
            Tel: 202-712-1150
            Fax: 202-216-3047
           www.usaid.gov/oig
